No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
DENARD STOKELING,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Denard Stokeling, through undersigned counsel, and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was placed in a prepaid third party
commercial envelope addressed to the Clerk of the Supreme Court of the United
States, on the 9th day of July, 2020, which is timely pursuant to the rules of this
Court.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
July 9, 2020

By:

s/ Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

